IN THE SUPREME COURT OF THE UNITED STATES
No.
ALFRED H. SIEGEL, TRUSTEE OF THE CIRCUIT CITY STORES, INC.
LIQUIDATING TRUST, PETITIONER
v.
JOHN P. FITZGERALD, III, ACTING UNITED STATES TRUSTEE
FOR REGION 4
CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITATIONS

I, Daniel L. Geyser, counsel for petitioner and a member of
the Bar of this Court, certify that the Petition for a Writ of
Certiorari

in

the

above-captioned

case

contains

9,000

words,

excluding the parts of the brief that are exempted by Rule 33.1(d).

Daniel L. Geyser
September 20, 2021

